<html>
<title> - THE EFFECTIVENESS OF FEDERAL SPENDING ON NATIVE AMERICAN PROGRAMS AND THE PRESIDENT'S FY 2012 BUDGET REQUEST FOR THE BUREAU OF INDIAN AFFAIRS AND THE OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
THE EFFECTIVENESS OF FEDERAL SPENDING ON NATIVE AMERICAN PROGRAMS AND 
   THE PRESIDENT'S FY 2012 BUDGET REQUEST FOR THE BUREAU OF INDIAN 
  AFFAIRS AND THE OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON INDIAN AND
                         ALASKA NATIVE AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, March 8, 2011

                               __________

                            Serial No. 112-6

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
65-117                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7a0b7a887a4b2b4b3afa2abb7e9a4a8aae9">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                   Rick Healy, Democrat Chief Counsel
                                 ------                                

            SUBCOMMITTEE ON INDIAN AND ALASKA NATIVE AFFAIRS

                        DON YOUNG, AK, Chairman
                 DAN BOREN, OK, Ranking Democrat Member

Tom McClintock, CA                   Dale E. Kildee, MI
Jeff Denham, CA                      Eni F.H. Faleomavaega, AS
Dan Benishek, MI                     Ben Ray Lujan, NM
Paul A. Gosar, AZ                    Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 8, 2011...........................     1

Statement of Members:
    Boren, Hon. Dan, a Representative in Congress from the State 
      of Oklahoma................................................     3
        Prepared statement of....................................     4
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona, Prepared statement of....................    18
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Echo Hawk, Larry, Assistant Secretary--Indian Affairs, U.S. 
      Department of the Interior.................................     5
        Prepared statement of....................................     7
    Joseph, Ray A., Principal Deputy Special Trustee for American 
      Indians, U.S. Department of the Interior...................    11
        Prepared statement of....................................    13


OVERSIGHT HEARING ON ``THE EFFECTIVENESS OF FEDERAL SPENDING ON NATIVE 
 AMERICAN PROGRAMS, AND ON THE PRESIDENT'S FY 2012 BUDGET REQUEST FOR 
THE BUREAU OF INDIAN AFFAIRS AND THE OFFICE OF THE SPECIAL TRUSTEE FOR 
                          AMERICAN INDIANS.''

                              ----------                              


                        Tuesday,, March 8, 2011

                     U.S. House of Representatives

            Subcommittee on Indian and Alaska Native Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 11:00 a.m. in 
Room 1334, Longworth House Office Building, The Honorable Don 
Young [Chairman of the Subcommittee] presiding.
    Present: Representatives Young, McClintock, Denham, Gosar, 
Labrador, Kildee, Pallone, Boren, Lujan, and Hanabusa.
    Mr. Young. The Committee will come to order.
    The Chairman notes the presence of a quorum. The 
Subcommittee on Indian and Alaska Native Affairs is meeting 
today to hear testimony on the effectiveness of Federal 
spending on Native American programs, and on the President's 
Fiscal Year 2012 request for the Bureau of Indian Affairs and 
the Office of the Special Trustee for American Indians.
    Under Committee Rule 4[f], opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee, so we 
can hear from my witnesses more quickly. However, I ask 
unanimous consent to include other Members' opening statements 
in the hearing record if submitted to the clerk by the end of 
business today. Hearing no objection, so ordered.
    Also, I don't see him here, but later on I ask unanimous 
consent that the gentleman from New Jersey, Mr. Pallone, may be 
allowed to join us on the dais. Without objection, so ordered.

   STATEMENT OF THE HONORABLE DON YOUNG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALASKA

    Mr. Young. Today, the newly established Subcommittee on 
Indian and Alaska Native Affairs meets at its first hearing of 
the 112th Congress. The purpose of today's hearing is to review 
the President's Fiscal Year 2012 budget request for Native 
American programs administered by the Bureau of Indian Affairs, 
and by the Office of the Special Trustee for American Indians.
    In this hearing, the Subcommittee intends to review the 
effectiveness of Federal spending on programs concerning 
recognizing Indian tribes. Today the government borrows money 
at the same time that it imposes obstacles for creation of new 
wealth, such as through the administration of the oil and gas 
leases on the Outer Continental Shelf. As a result, jobs are 
destroyed and the power of the dollar gets weaker and weaker.
    Indian tribes and individual Indians own about 56 million 
acres of land held in trust. In my State of Alaska, another 44 
million acres of land is owned by the Alaska Native 
Corporations. That is a total of 100 million acres of land, the 
size of California. Together these lands contain abundant 
resources of conventional renewable energy and hard rock 
minerals and aggregates, and timber, farming, grazing, fish and 
wildlife resources.
    So, through responsible development of these resources 
tribes and individual Indians are well positioned to provide 
good jobs to tribal members and revenue for the tribal 
governments. It can also restore the manufacturing base of 
America that has been lost to the recent radical expansion of 
government regulations. The problem is outdated Federal 
policies stand in the way of tribal development and their 
resources. Examples are abundant, but a recent one that comes 
to mind is when this government denied an Indian tribe with 50 
percent unemployment from building a new power plant, all in 
the name of pleasing the special interests.
    The one goal of the hearing today is to examine whether or 
not the budget requested by the President reflects the policy 
of Congress to promote genuine tribal self-determination, not 
the kind of self-determination defined by special interests. 
Another purpose of today's hearing is the question of budget 
priorities the President has as Congress faces the unavoidable 
task of reducing the government's massive deficit and debt.
    As we attack the budget deficit, it is imperative for 
Congress to ensure to uphold Indian treaties and solemn 
promises made to tribes through acts of Congress. It also means 
ensuring money is spent wisely and effectively for these 
purposes, not waste it on things like excessive attorney fees 
and Indian claim settlements. In this effort, it is my intent 
to work on a bipartisan basis with my colleagues on the 
Committee, and to work with the Administration to ensure the 
government is properly consulting with Indian Country to ensure 
the budget choices made by the House work for the benefit of 
American Indians.
    With that, I look forward to hearing from the witnesses 
today.
    [The prepared statement of Chairman Young follows:]

            Statement of The Honorable Don Young, Chairman, 
            Subcommittee on Indian and Alaska Native Affairs

    Today the newly established Subcommittee on Indian and Alaska 
Native Affairs meets in its first hearing of the 112th Congress. The 
purpose of today's hearing is to review the President's fiscal year 
2012 budget request for Native American programs administered by the 
Bureau of Indian Affairs, and by the Office of the Special Trustee for 
American Indians. In this hearing, the Subcommittee intends to review 
the effectiveness of federal spending on programs concerning recognized 
Indian tribes.
    Today, the government borrows money at the same time as it imposes 
obstacles to the creation of new wealth, such as through the 
Administration's inaction on oil and gas leasing in the Outer 
Continental Shelf. As a result, less jobs are created, and the power of 
the dollar gets weaker and weaker. Fewer places in America feel the 
effects of America's decline in the production of new wealth and in the 
strength of the dollar, than Indian Country.
    Indian tribes and individual Indians own about 56 million acres of 
land held in trust. In my state of Alaska, another 44 million acres of 
land are owned in fee by Alaska Native Corporations.
    Together these lands contain abundant resources in conventional and 
renewable energy, in hard rock minerals and aggregates, and in timber, 
farming, grazing, and fish and wildlife resources. Through responsible 
development of these resources, tribes and individual Indians are well-
positioned to provide good jobs to tribal members and revenues to 
tribal governments. They can also help restore the manufacturing base 
of America that has been lost through the recent, radical expansion of 
government regulation.
    The problem is that outdated federal policies stand in the way of 
tribal development of their resources. Examples are abundant, but a 
recent one that comes to mind was when this government denied an Indian 
tribe with 50 percent unemployment from building a new power plant--all 
in the name of pleasing special interests.
    One goal of today's hearing is to examine whether or not the budget 
request of the President reflects the policy of Congress to promote 
genuine tribal self-determination, not the kind of self-determination 
as defined by special interests.
    Another purpose of today's hearing is to question the budget 
priorities of the President as Congress faces the unavoidable task of 
reducing the government's massive deficit and debt.
    As we attack the budget deficit, it is imperative for Congress to 
ensure it upholds its end in treaties and solemn promises made to 
tribes through Acts of Congress. It also means ensuring money is spent 
wisely and efficiently for these purposes--not wasted on things like 
excessive attorney fees in Indian Claims settlements.
    In this effort, it is my intent to work on a bipartisan basis with 
my colleagues on the Committee, and to work with the Administration, to 
ensure the government is properly consulting with Indian Country to 
ensure the budget choices made by the House work for the benefit of 
Native Americans.
                                 ______
                                 
    Mr. Young. With that, I now recognize my good friend, Mr. 
Boren, the Ranking Member of this Subcommittee, to make a 
statement.

   STATEMENT OF THE HONORABLE DAN BOREN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Boren. Thank you, Chairman Young, for holding this 
hearing today and for your bipartisan communication on this 
issue and many others. I am very encouraged by your willingness 
to work with me and our entire staff of this Committee, and I 
look forward to working with you in the future.
    I want to say a special word about the gentleman to my 
left, Dale Kildee, the champion for Indian Country. Thank you 
for again allowing me to be in this position, and I look 
forward to working with you as well, Mr. Kildee.
    Finally, I would like to thank the Bureau of Indian 
Affairs, Bureau of Indian Education, and the Office of the 
Special Trustee for American Indians for taking part in the 
hearing to discuss the Fiscal Year 2012 budget and its effect 
on Indian Country. I am very pleased to be part of the newly 
formed Subcommittee. I think it is long overdue. I look forward 
to finally addressing some of the issues facing Native 
Americans that have been left unresolved.
    There are very many important topics that I hope to uncover 
during the coming months but none of which can move forward 
until the budget is dissected. Looking at the Administration's 
proposed budget for 2012, I would like to second Chairman 
Young's emphasis on tribal sovereignty and the importance of 
removing the Federal Government from their development. We need 
to build a budget that creates jobs and opportunities for 
tribal nations without creating more bureaucratic regulation. 
This budget should strengthen the programs that allow tribes to 
act in their own best interest. It must also balance 
responsibilities to ensure every promise we make we can and 
will keep. With this in mind, there is no doubt that sacrifices 
must be made so that we can get the nation's budget under 
control.
    I am pleased to see many positive changes in the proposed 
budget that reflect both the need for cuts while maintaining 
the integrity of the much needed programs. As a strong believer 
in the self-determination of tribal entities, I am glad to see 
the budget allows for additional funding to provide newly 
recognized tribes with a start-up cost. With 17 Federally 
recognized tribes in my district, many of which are small, 
Oklahoma will benefit greatly from the additional funding for 
small and needy tribes.
    On the other hand, this budget provides an example of ways 
to cut money with the least impact. For example, the budget 
cuts $450,000 by eliminating excess printing, and another $2.5 
million was saved by adopting departmental IT deficiencies. 
These are the kind of cuts that need to be made. This is the 
wasteful spending that we all talk about, and these cuts are 
the way that we can keep programs in Indian Country strong 
while remaining fiscally responsible. Overall, this is a good 
start. We must, however, maintain focus upon sovereignty and 
economic development so that our Indian communities can 
continue to grow and to govern. I look forward to discussing 
with everyone here today how the President's budget can or may 
address these issues.
    I yield back.
    [The prepared statement of Mr. Boren follows:]

  Statement of The Honorable Dan Boren, a Representative in Congress 
                       from the State of Oklahoma

    Thank you Chairman Young for holding our hearing today and for your 
bipartisan communication on this issue and others. I am very excited 
about the representation we have on this committee and look forward to 
working with you.
    I would also like to thank Dale Kildee for his continued leadership 
and efforts on the behalf of Native Americans. He is a real champion 
for Indian Country. I am proud to be a part of his team.
    Finally, I'd like to thank the Bureau of Indian Affairs, Bureau of 
Indian Education, and the Office of the Special Trustee for American 
Indians for taking part in the hearing to discuss the Fiscal Year 2012 
budget and its affect on Indian Country.
    I'm very pleased to be a part of this newly-formed subcommittee. It 
is long overdue. I look forward to finally addressing some of the 
issues facing Native Americans that have been left unresolved.
    There are many very important topics that I hope to uncover the 
coming months, but none of which can move forward until the budget is 
dissected.
    Looking at the Administration's proposed budget for 2012, I would 
like to second Chairman Young's emphasis on tribal sovereignty and the 
importance of removing government from their development.
    We need to build a budget that creates jobs and opportunities for 
our tribal neighbors without creating more bureaucratic regulation.
    This budget should strengthen the programs that allow tribal 
nations to act in their own best interests.
    It must also balance responsibilities to ensure every promise we 
make, we can and will keep.
    With this in mind, there is no doubt that sacrifices must be made 
so that we can get the nation's budget under control.
    I'm pleased to see many positive changes in the proposed budget 
that reflect both the need for cuts while maintaining the integrity of 
much needed programs.
    As a strong believer in the self-determination of tribal entities I 
am glad to see the budget allows for additional funding to provide 
newly-recognized tribes with the start-up costs.
    With 17 federally recognized tribes in my district, many of which 
are small, Oklahoma will benefit greatly from the additional funding 
for small and needy tribes.
    On the other hand, this budget provides an example of ways to cut 
money with the least impact. For example, the budget cut $450,000 by 
eliminating excess printing. And another $2.5 million was saved by 
adopting Departmental IT efficiencies.
    These are the kinds of cuts that need to be made. This is the 
wasteful spending we talk about. And these cuts are the way that we can 
keep programs in Indian Country strong while remaining fiscally 
responsible.
    Overall, this is a good start. We must, however, maintain focus 
upon sovereignty and economic development so that our Indian 
communities can continue to grow and to govern.
    I look forward to discussing with everyone here how the President's 
budget can or may not address these issues.
                                 ______
                                 
    Mr. Young. I thank the gentleman, and with that I will call 
the two witnesses, Larry Echo Hawk. Assistant Secretary for 
Indian Affairs, and Ray Joseph, the Principal Deputy Special 
Trustee for American Indians.
    Welcome both of you. I am sure you have done this before 
but you will be limited to five minutes, but I will tell you 
that sometimes I am more lenient if you cannot finish your 
statement at that time do so. But answering questions you can, 
both of you, try to make them as concise as possible, and that 
goes for the questions, too, and smack me up alongside the head 
if I don't ask concise questions, too. You know how the timing 
lights work. You have five minutes, but again, I will be a 
little lenient, and again, welcome to the Committee, and I will 
start, I believe, with Mr. Echo Hawk.
    And first let me say, Mr. Echo Hawk, I want to thank you 
for going to Alaska. I have spoken to you before about my 
interests in developing legislation that will be beneficial. We 
expect you, hopefully, will volunteer--this will not be an 
adversarial position--to try to improve the Bureau of Indian 
Affairs and how it serves its constituents. I know you have 
some suggestions. If you can't say them out loud, you can say 
them quietly on paper as I know how this system works. But my 
goal in this period of time, and I am sure Mr. Boren, the 
Ranking Member, and the other Members is to try to make sure 
that we can progress forward with Indian Country and Alaska 
Natives and make sure they have an opportunity to improve their 
lot.
    So, again, thank you, and welcome aboard and you are up 
first.

STATEMENT OF THE HONORABLE LARRY ECHO HAWK, ASSISTANT SECRETARY 
 FOR INDIAN AFFAIRS, BUREAU OF INDIAN AFFAIRS, U.S. DEPARTMENT 
                        OF THE INTERIOR

    Mr. Echo Hawk. Thank you, Mr. Chairman, and Ranking Member 
Boren, and Subcommittee Members. Thank you for the opportunity 
extended to me to provide the Department of the Interior 
statement on the President's 2012 budget request for Indian 
Affairs. As the Assistant Secretary for Indian Affairs, I 
oversee the Office of the Assistant Secretary and also the 
Bureau of Indian Affairs, and the Bureau of Indian Education.
    With me today are Mike Black, the Director of the Bureau of 
Indian Affairs, and Keith Moore, the Director of the Bureau of 
Indian Education.
    The President has requested $2.5 billion for Indian Affairs 
within the Department of the Interior. Through the work of the 
Tribal Interior Budget Council for Indian Affairs, this budget 
has been crafted after careful consultation with American 
Indian and Alaska Native government representatives. The 
President has called upon members of his administration to meet 
important objectives while also exercising fiscal 
responsibility. Consistent with that directive, difficult 
choices have been made in formulating the Fiscal Year 2012 
request for Indian Affairs.
    The Fiscal Year 2012 request is $118.9 million below the 
Fiscal Year 2010 enacted budget level. This is a reduction of 
4.5 percent. The majority of the reductions are due to one-time 
program increases provided in prior appropriations, completion 
of projects and completion of payments to settlements. Still, 
Indian Affairs had to make tough decisions that reflect the 
President's commitment to fiscal responsibility. Nevertheless, 
this proposed budget has $89.6 million targeted increases for 
tribal programs, and I would like to highlight some of those 
targeted increases which are a part of the President's 
strengthening tribal nations initiative.
    Under the category of advancing nation-to-nation 
relationships, there is a $42.3 million increase, which 
includes contract support cost of $25.5 million. I note that 
this is the top priority of the Tribal Interior Budget Council. 
That Council is made up of two tribal representatives from all 
12 regions of the country.
    Also included within this category is $4 million for the 
Indian Self-Determination Fund, and this is to assist tribes to 
contract and compact new programs. There is also a provision 
here for support of small and needy tribes at the level of $3 
million, and this would help small tribes carry out basic 
services as tribal governments. This will affect 114 tribes, 86 
of which are in the State of Alaska.
    The second category is protecting Indian communities and we 
are requesting an increase of $20 million which includes $5.1 
million for our tribal law enforcement operations, a total of 
$11.4 million for the operation and maintenance of detention 
centers and $2.5 million for tribal courts.
    In the third category, improving trust land management, 
there is an increase requested of $18.4 million, which includes 
$2 million for renewable energy projects on tribal trust lands, 
and $1 million for conventional energy development. In trust 
natural resource management, there is a request for a $7.7 
million increase which covers a variety of things, including 
development of the former Bennett Freeze area on the Navajo 
reservation in Arizona, also implementation of off-reservation 
treaty rights for conservation and management, and also 
management of on-reservation fish and wildlife resources. It 
also includes, as an example, $1 million for forestry programs 
on approximately 292 reservation areas.
    And in the fourth category, improving Indian education, 
there is an increase requested of $8.9 million. This includes 
an initiative on safe and secure schools of $3.9 million which 
will implement safety and security programs at 10 schools to 
mitigate issues identified by the Inspector General last year.
    There is also a request of $2 million to meet settlement 
terms with regard to an EPA--EPA violations found in 2008, and 
then $3 million for tribal support, grant support cost for--
that is $3 million to fund administration and indirect costs 
for 124 controlled schools and residential facilities.
    There are significant program decreases, and just highlight 
that in the operation of Indian programs there would be a 
decrease of $43.3 million, construction would be $65 million, 
and there are program eliminations of $7.9 million, program 
completions of $64.4 million, and administrative reductions of 
$22.1 million.
    This budget will serve more than 1.7 million American 
Indians and Alaska natives, and I note that almost 90 percent 
of all appropriations are expended at the local level, 63 
percent of appropriations are provided directly to tribes. 
There are great needs in Indian Country, but President Obama's 
administration has faithfully sought to meet those needs by 
following the priorities set by tribal leaders. We would be 
happy to respond to questions. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Echo Hawk follows:]

  Statement of Larry Echo Hawk, Assistant Secretary--Indian Affairs, 
                    U.S. Department of the Interior

    Good morning Chairman Young and Ranking Member Boren, and members 
of the Subcommittee on Indian and Alaska Native Affairs. Thank you for 
the opportunity to provide the Department of the Interior's 
(Department) statement on the fiscal year (FY) 2012 President's Budget 
request that was released on February 14, 2011 for Indian Affairs' 
programs. The FY 2012 budget request for Indian Affairs programs within 
the Department totals $2.5 billion in current appropriations. This 
reflects $118.9 million, a 4.5 percent decrease, from the FY 2010 
enacted level. The budget includes a reduction of $50.0 million to 
eliminate the one-time forward funding provided in 2010 to Tribal 
Colleges and Universities; a reduction of $41.5 million for detention 
center new facility construction due to a similar program within the 
Department of Justice; and a reduction of $22.1 for administrative cost 
savings and management efficiencies.
    Overall, the 2012 Indian Affairs budget reflects a fiscally 
responsible balance of the priorities expressed by the Tribes during 
consultation and broader objectives of the Administration, as well as 
demonstrated program performance, and realistic administrative 
limitations. The 2012 budget focuses on core responsibilities to 
American Indians and Alaska Natives through programs and services that 
are vital to Indian Country and that benefit the greatest number of 
Indian people on a nationwide basis. The budget focuses on priority 
areas in Indian Country and honors the Federal Government's obligations 
to tribal nations in a focused and consulted manner.
    As the Assistant Secretary for Indian Affairs, I have the 
responsibility to oversee the numerous programs within the Bureau of 
Indian Affairs (BIA) and the Bureau of Indian Education (BIE), along 
with other programs within the immediate office of the Assistant 
Secretary for Indian Affairs. The Office of the Assistant Secretary for 
Indian Affairs, BIA, and BIE programs expend over 90 percent of 
appropriations at the local level. Of this amount, at least 62 percent 
of the appropriations are provided directly to tribes and tribal 
organizations through grants, contracts, and compacts for tribes to 
operate government programs and schools. Indian Affairs' programs serve 
the more than 1.7 million American Indian and Alaska Natives living on 
or near the reservation.
    The Indian Affairs FY 2012 budget request provides funding for 
three of the Department's priority initiatives: Strengthening Tribal 
Nations, New Energy Frontier, and Cooperative Landscape Conservation.
Strengthening Tribal Nations
    The Strengthening Tribal Nations initiative is a multi-faceted 
approach to enhance Nation-to-Nation relationships, improve Indian 
education, protect Indian communities, and reform trust land 
management, with the ultimate goal of greater tribal self-
determination. This initiative was highlighted over a year ago when 
President Obama and his Administration engaged in direct dialogue with 
Tribal Nations in November 2009 at the White House Tribal Nations 
Conference held at the Department's Yates Auditorium, with over 400 
tribal leaders in attendance. The President held a second successful 
conference in December 2010 to continue dialogue and work with tribal 
nations.

Nation-to-Nation Relationship
    The Administration, in believing that investing in Indian Country 
is the key to advancing our Nation-to-Nation relationship, seeks $42.3 
million in programmatic increases for contract support, self 
determination contract specialists, and social workers. At the 
forefront of this investment is contract support, which was identified 
by many tribal nations as their top priority.
    Funding contract support costs encourages tribal contracting and 
supports Indian self-determination. Contract support funds are used by 
Tribes that manage Federal programs to pay a wide range of 
administrative and management costs, including finance, personnel, 
maintenance, insurance, utilities, audits, communications, and vehicle 
costs.
    The requested FY 2012 increases will also allow the BIA to fund 
Self-Determination Specialist positions to ensure proper contract 
oversight. In addition, it will allow the BIA to add more social 
workers to assist tribal communities in addressing problems associated 
with high unemployment and substance abuse. Through this assistance, 
and by addressing these problems, there will be positive indirect 
impacts on public safety and education in these tribal communities. We 
also plan for $3.0 million of this request for approximately 86 Alaska 
and 17 ``lower-48'' Small and Needy Tribes that both have populations 
below 1,700 and receive less than the recommended threshold for base 
funding. These funds will bring these Tribes to the minimum funding 
necessary to strengthen their tribal governments ($160,000 in the 
lower-48 and $190,000 in Alaska).
    In addition, reflecting a top priority of President Obama, 
Secretary Salazar and I, the budget request includes language 
confirming the Department of the Interior's authority to acquire land 
in trust for all federally recognized tribes. Taking land into trust is 
one of the most important functions that the Department undertakes on 
behalf of Indian tribes. Since 2009, the Department has acquired more 
than 34,000 acres of land in trust on behalf of Indian nations. Tribal 
homelands are essential to the health, safety and welfare of American 
Indians and Alaska Natives.

Protecting Indian Country
    For the past several years, tribal nations have consistently 
identified public safety as one of their top priorities. The BIA 
supports 193 law enforcement programs throughout the nation; within the 
193 programs, there are 6 district offices and 187 programs performing 
law enforcement services consisting of: 36 BIA-operated programs and 
151 tribally-operated programs. Approximately 78 percent of the total 
BIA Office of Justice Services (OJS) programs are outsourced to tribes.
    President Obama, Secretary Salazar and I have prioritized public 
safety based on feedback from the respective tribes. The FY 2012 budget 
request seeks an additional $20.0 million in public safety funding over 
the FY 2010 enacted level. Within the increase, $5.1 million is for 
tribal and bureau law enforcement operations and $10.4 million for 
tribal and bureau detention facilities operations. The funding will be 
used for staffing, training, implementation of the Tribal Law and Order 
Act, and equipment to increase staffing capacity for law enforcement 
and detention programs and ensure communities can support efforts to 
combat crime in Indian Country. The budget requests an additional $1.0 
million, for a total of $13.8 million in funding for detention 
facilities operations and maintenance throughout Indian country.
    The budget includes $2.5 million for tribal courts to support the 
enhanced capabilities given to tribal courts in the Tribal Law and 
Order Act. The increases to tribal courts and corrections will augment 
recent increases to the size of the tribal police forces over the last 
several years, which is part of a multistep plan to strengthen tribal 
justice systems.
    The budget also includes $1.0 million for tribal Conservation Law 
Enforcement Officers. The CLEO's primary responsibility is the 
protection of tribal natural resources; however, officers are often 
cross-deputized with local law enforcement agencies providing CLEOs 
with the authorization to enforce criminal law.

Advancing Indian Education
    The BIE is one of only two agencies in the Federal government that 
manages a school system, the other being the Department of Defense. 
Education is critical to ensuring a viable and prosperous future for 
tribal communities and American Indians. It is this Department's goal 
to improve Indian education and provide quality educational 
opportunities for those students who attend the 183 BIE funded 
elementary and secondary schools and dormitories located on 64 
reservations in 23 states and serving approximately 41,000 students.
    The FY 2012 request maintains the President's, Secretary Salazar's, 
and my ongoing commitment to improve Indian education for students in 
bureau-funded schools and tribally controlled colleges. The budget 
provides an increase of $8.9 million to improve the state of BIE 
schools. We plan to use $3.9 million to promote safe and secure schools 
by implementing safety and security measures at 10 schools and 2 
dormitories. This request also includes an increase of $2.0 million, 
which will provide funds for additional professionals to conduct 
environmental audits at BIE schools.
    Another component of BIE funding is Tribal Grant Support Costs, 
which cover administrative and indirect costs at 126 tribally 
controlled schools and residential facilities. Tribes operating BIE-
funded schools under contract or grant authorization use these funds to 
pay for the administrative overhead necessary to operate a school, meet 
legal requirements, and carry out other support functions that would 
otherwise be provided by the BIE school system. The budget increases 
funding for these activities by $3.0 million.

Improving Trust Land Management
    In addition to the human services components of Indian Affairs, the 
United States holds 55 million surface acres of land and 57 million 
acres of subsurface mineral estates in trust for Tribes and individual 
Indians. Trust management is vital to tribal and individual economic 
development. The management of Indian natural resources is a primary 
economic driver in many regions within the country. For example, some 
of the larger forested tribes operate the only sawmills in their region 
and are major employers of not only their own people, but of the non-
tribal members who live in or near their communities
    This Administration seeks to continue advancing the Strengthening 
Tribal Nations initiative by assisting Tribes in the management, 
development and protection of Indian trust land, as well as natural 
resources on those lands. The FY 2012 budget request includes $18.4 
million in programmatic increases for land and water management 
activities. Those activities include: $1.2 million for land development 
in the former Bennett Freeze area in Arizona on the Navajo Nation 
reservation and $1.0 million for the Forestry program.
    The 2012 budget provides $2.0 million for the Rights Implementation 
program and the Tribal Management and Development program to support 
fishing, hunting, and gathering rights on and off reservations. The 
request provides $2.0 million for Fish, Wildlife, and Parks programs 
and projects to support fisheries management at BIA and tribal levels. 
The budget also provides an additional $500,000 for the Invasive 
Species/Noxious Weed Eradication program to provide weed control on 
20,000 acres.
    The budget proposes an additional $1.0 million for the Water 
Management and Pre-Development program to assist Tribes in the 
identification and quantification of water resources; $1.0 million for 
Water Rights/Litigation to defend and assert Indian water rights. The 
budget also provides an increase of $3.8 million to help BIA address 
dam safety deficiencies and ensure public safety near high hazard dams 
in Indian Country.
    Additional increases for Improving Trust Land Management are 
included in the New Energy Frontier and the Cooperative Landscape 
Conservation initiatives.

New Energy Frontier Initiative
    The Office of Indian Energy and Economic Development (IEED) works 
closely with Tribes to assist them with the exploration and development 
of tribal lands with active and potential energy resources. These lands 
have the potential for renewable and conventional energy resource 
development. The FY 2012 budget includes an increase of $3.5 million in 
Indian Affairs for conventional and renewable energy projects as part 
of the Department's New Energy Frontier initiative, which will allow 
Indian Affairs and Tribes to explore and develop 1.8 million acres of 
active and potential energy sources on tribal land. The IEED provides 
funding, guidance, and implementation of feasibility studies, market 
analyses, and oversight of leasehold agreements of oil, gas, coal, 
renewable and industrial mineral deposits located on Indian lands.
    This increase includes $2.0 million in the Minerals and Mining 
program to provide grants directly to Tribes for projects to evaluate 
and develop renewable energy resources on tribal trust land, a vital 
first step before energy development can begin. The budget also 
contains a $1.0 million increase for conventional energy development on 
the Fort Berthold Reservation. To further expedite energy development 
on the Fort Berthold Reservation, Indian Affairs, the Bureau of Land 
Management, Bureau of Ocean Energy Management, Regulation and 
Enforcement, and the Office of the Special Trustee for American Indians 
created a ``virtual'' one-stop shop. The IEED--Division of Energy and 
Mineral Development, at the one-stop shop, has been proactive in using 
technology and technical assistance to process permits on the Fort 
Berthold Reservation. In 2010, the number of wells went from zero wells 
at the start of 2010 to over 100 producing wells at the end of 2010. It 
is anticipated that in 2011 this number will double to over 200 
producing wells on Indian trust lands. The budget includes a $500,000 
increase to support staff onsite, as well as provide on-call access to 
the full range of the Department's operational and financial management 
services.
    In addition, IEED supports economic growth in Indian Country and 
assists Indian Tribes in developing economic infrastructure, augmenting 
business knowledge, increasing jobs, businesses, capital investment, as 
well as developing energy and mineral resources on trust lands. IEED 
has initiated many programs, projects, technical conferences and 
training programs to address the lack of employment, and intends to 
continue these efforts.

Cooperative Landscape Conservation Initiative
    Indian Affairs will co-lead the North Pacific Landscape 
Conservation Cooperative (LCC) with the U.S. Fish and Wildlife Service 
and support tribal outreach efforts of other LCCs, particularly those 
in the northwestern U.S. In the North Pacific Cooperative, Indian 
Affairs will seek tribal input and perspective from Tribes with 
traditional ecological knowledge; and both Indian Affairs staff and 
local tribal members will be involved to develop strategies to address 
adaptation.

Requested Decreases
    The initiatives described above, and the related increases in the 
Administration's request, mark a continued step toward the advancement 
of the Federal government's relationship with tribal nations. These 
initiatives focus on those programs geared toward strengthening tribal 
nations and reflect the President's priorities to support economic 
development in Indian Country.
    The President has also called upon members of his Administration to 
meet important objectives while also exercising fiscal responsibility. 
Consistent with that directive, we made several difficult choices in 
the FY 2012 appropriations request for Indian Affairs.
    The 2012 request includes $43.3 million in program decreases for 
the Operation of Indian Programs account including administrative 
central office reductions of $14.2 million for streamlining and 
improving oversight operations and to correspond to other programmatic 
cuts within the 2012 request. The budget reduces Real Estate Projects 
by $10.9 million; the remaining funds will be used to focus program 
operations on cadastral surveys as a catalyst for economic development 
for Tribes. The budget reduces Land Records Improvement by $8.5 
million; the remaining funds will maintain core operations for the 
Trust Asset and Accounting Management System. The budget reduces the 
Probate Backlog by $7.5 million as over 18,000 cases are expected to be 
completed.
    The Indian Affairs 2012 budget includes $32.9 million for ongoing 
Indian land and water settlements, which includes a reduction of $14.5 
million reflecting completion of the Pueblo of Isleta, Puget Sound 
Regional Shellfish, and Soboba Band of Luiseno Indians settlements. The 
budget includes $9.5 million for the sixth of seven required payments 
for the Nez Perce/Snake River Settlement. The Omnibus Public Land 
Management Act of 2009 authorized payments to Shoshone-Paiute Tribes of 
the Duck Valley Reservation; this budget includes $12.0 million for the 
third payment for that settlement. The Act also authorized settlement 
payments to the Navajo Nation; the budget includes $6.0 million for 
Navajo Nation Water Resources Development Trust Fund and $4.4 million 
for the San Juan Conjunctive Use Wells and San Juan River Navajo 
Irrigation Rehabilitation Project which are part of the Navajo-Gallup 
Settlement.
    The Construction program contains program reductions of $65.0 
million. Of this programmatic decrease, $41.5 million for Public Safety 
and Justice new facility construction has been reduced from the 
Construction budget. The budget is reduced by $8.9 for Education 
Replacement Facility Construction, $5.0 million for Public Safety and 
Justice Employee Housing; the Department has taken a strategic approach 
to not fund new construction in 2012. At the requested level, the 
Education Construction budget redirects funding from new construction 
activities to Facility Improvement and Repair to achieve greater 
flexibility in maintaining existing facilities and employee housing.
    The budget includes a reduction of $9.0 million for the Navajo 
Indian Irrigation Project. Indian Affairs is evaluating continuing 
construction on the Navajo Indian Irrigation Project. Additionally, 
$57.3 million was transferred from Construction to the Operation of 
Indian Programs account so to better align and consolidate operations 
and maintenance funding.
    The request takes into consideration the $285.0 million that was 
provided to Indian Affairs for school and detention center construction 
activities and $225.0 million provided to the Department of Justice for 
detention center construction in Indian Country under the American 
Recovery and Reinvestment Act (Recovery Act). With funding from the 
Recovery Act, Indian Affairs will complete a number of high priority 
projects.
    Although there are decreases to the construction programs in the 
appropriations request, the appropriations request does contain the 
following construction items: $52.1 million for Education, $11.3 
million for Public Safety and Justice, $33.0 million for Resource 
Management, and $8.5 million for Other Program Construction.
    The budget provides $3.1 million for the Indian Guaranteed Loan 
program, a reduction of $5.1 million from the 2010 Enacted level. The 
program will undergo an evaluation, develop a comprehensive performance 
metric framework, and improve efforts to work with other Federal 
agencies that assist Tribes in loans.
    The 2012 budget includes a reduction of $3.0 million for the Indian 
Land Consolidation Program. The Claims Resolution Act of 2010 included 
the Cobell v. Salazar settlement agreement. The agreement includes $1.9 
billion for land consolidation within the Office of the Secretary. This 
new funding will utilized to consolidate fractionalized land interests 
to be more economically viable for Tribes.

Conclusion
    We are aware of the current fiscal challenges our nation faces. 
This Administration understands the need to take fiscal responsibility, 
and also understands the need to strengthen tribal nations, foster 
responsible development of tribal energy resources, and improve the 
Nation-to-Nation relationship between tribal nations and the United 
States. It is our sincere belief that we have struck a balance in this 
FY 2012 budget request for Indian Affairs that achieves the President's 
objectives of fiscal discipline while at the same time meeting our 
obligations to tribal nations with which our Federal government has a 
Constitutionally-based government-to-government relationship.
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today. I am happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Young. Thank you, Mr. Echo Hawk. Mr. Joseph, you are up 
next.

  STATEMENT OF THE HONORABLE RAY A. JOSEPH, PRINCIPAL DEPUTY 
  SPECIAL TRUSTEE FOR AMERICAN INDIANS, OFFICE OF THE SPECIAL 
 TRUSTEE FOR AMERICAN INDIANS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Joseph. Good morning, Chairman Young, Ranking Member 
Boren, and Members of the Subcommittee. My name is Ray Joseph. 
I am the Principal Deputy Special Trustee for American Indians. 
I have with me the Associate Principal Deputy Special Trustee 
for American Indians, Donna Erwin with me today.
    I am pleased to be before the Subcommittee today to discuss 
Interior's Fiscal Year 2012 budget for the Office of the 
Special Trustee for American Indians. I have submitted my full 
statement to the Subcommittee, which I ask be made part of the 
hearing record.
    Mr. Young. Without objection.
    Mr. Joseph. OST's Fiscal Year 2012 budget request is 
consistent with the President's goal to reduce the deficit but 
remain sufficient to meet our fiduciary responsibilities and to 
provide quality services to Indian beneficiaries. OST was 
initially tasked by Congress with department-wide oversight for 
the reform of Indian Trust management, and the implementation 
of new fiduciary accounting systems. OST's oversight role 
expanded in 1996 to include operational responsibility for 
financial trust management, including the receipt, investment 
and disbursement of beneficiary funds. The Office of Appraisal 
Services, which appraises Indian Trust lands, was move to OST 
in 2002. The Office of Historical Trust Accounting was 
realigned in 2007, to report directly to the Special Trustee.
    The President's Fiscal Year 2012 budget request for the 
Department of the Interior's Office of the Special Trustee for 
American Indians is $152.3 million. This is reflecting a $24.7 
million decrease from the 2010 enacted 2011 resolution. OST's 
2012 budget request reflects program reductions of $22.6 
million, and $3.3 million in administrative savings from the 
2010 enacted 2011 continuing resolution. The only proposed 
increase in funding is for fixed costs, which includes space, 
utilities, and other overhead expenses which is increased by 
$1.2 million.
    I would like to highlight five areas in the 2012 budget 
request. The Office of Special Trustee requests a $31.2 million 
budget for the Office of Historical Trust Accounting. This is a 
reduction of $16 million from the Fiscal Year 2010 base level. 
The 2012 budget request reflects the enactment of a settlement 
for the Cobell v. Salazar lawsuit, and assumes the approval of 
the settlement in 2011. This settlement does not address 
pending tribal cases, a total of $27.2 million will be used to 
support and analyze tribal claims in coordination with the 
Department of Justice. There are currently 96 tribal cases 
pending involving 114 tribes. A total of $4 million will be 
used to resolve proper ownership of residual balances in 
special deposit accounts and to distribute the account balances 
to tribes, individual Indians, and non-trust entities.
    The 2012 budget request also eliminates the Office of 
Engineering, which is a savings of $2.1 million. This office 
worked to consolidate prior fiduciary trust reform plans. The 
bulk of trust reform projects that this office impacted are 
currently in production, therefore this office's operations are 
now deemed to be a lower priority. This program will be 
eliminated through attrition and reassignment.
    The budget also requests a $1.9 million reduction on the 
Office of Trust Records. In Fiscal Year 2009, the Office of 
Trust Records completed the indexing of trust records collected 
in previous fiscal years from BIA. In future years the Office 
of Trust Records will continue to use in-house staff rather 
than contractors to maintain and update the trust records 
database and as trust records are retired. OTR will be using 
less Federal personnel in the base contract level, and there 
should be a minimal impact on workload and performance.
    The Fiscal Year 2012 budget request also request s 
reduction of $1 million in Data Quality and Integrity Program. 
This is a trust asset and account management system data clean-
up project that validates or corrects critical data elements. 
The TAAMS leasing model, post conversion cleanup efforts are 
projected to be completed in Fiscal Year 2011, therefore in 
Fiscal Year 2012, DQ&I will have decreased workload.
    In support of the President's commitment to fiscal 
discipline and spending restraint, OST is participating in an 
aggressive department-wide effort to curb non-essential 
administrative spending. The staff of OST was able to design a 
more efficient operational management structure which accounts 
for $3.3 million in administrative savings in this budget 
request.
    This 2012 budget request includes reductions that reflect 
that reflect the accountable government imitative to curb non-
essential administrative spending in support of the President's 
commitment on fiscal discipline and spending restraint. The 
staff has also implemented an accounting process that ensures 
today's Indian Trust financial operations are transparent and 
efficient. Our beneficiaries can be assured OST will continue 
to manage their funds with proficiency and care.
    Mr. Chairman, once again I would like to thank you for the 
opportunity to appear before you today, and I will be happy to 
answer any questions that you may have.
    [The prepared statement of Mr. Joseph follows:]

     Statement of Ray A. Joseph, Principal Deputy Special Trustee 
         for American Indians, U.S. Department of the Interior

    Good morning, Chairman Young, Ranking Member Boren and Members of 
the Subcommittee. My name is Ray Joseph, and I am the Principal Deputy 
Special Trustee for American Indians.
    I am pleased to be before the Subcommittee today to discuss 
Interior's fiscal year (FY) 2012 budget for the Office of the Special 
Trustee for American Indians. I have submitted my full statement to the 
Subcommittee, which I ask be made part of the hearing record.
    OST's FY 2012 budget request is consistent with the President's 
goal to reduce the deficit, but remains sufficient to meet our 
fiduciary responsibilities and provide quality services to Indian 
beneficiaries.

OST Purpose
    OST was initially tasked by Congress with Department-wide oversight 
for the reform of Indian trust management and implementation of new 
fiduciary accounting systems. OST's oversight role expanded in 1996 to 
include operational responsibility for financial trust fund management, 
including receipt, investment and disbursement of beneficiary funds. 
The Office of Appraisal Services, which appraises Indian trust lands, 
was moved to OST in 2002. The Office of Historical Trust Accounting was 
realigned in 2007 to report directly to the Special Trustee.

FY 2012 Budget Request
    The President's fiscal year 2012 budget request for the Department 
of the Interior's Office of the Special Trustee for American Indians 
(OST) is $152.3 million, reflecting a $24.7 million net decrease from 
the 2010 Enacted/2011 CR. OST's 2012 budget request reflects program 
reductions of $22.6 million and $3.3 million in administrative savings 
from the 2010 Enacted/2011 CR level. The only proposed increase is in 
funding for fixed costs--space, utilities, and other overhead 
expenses--which increased by $1.2 million.
    I would like to highlight five areas in OST's FY 2012 budget:

OHTA
    The OST request also includes $31.2 million for the Office of 
Historical Trust Accounting (OHTA), a reduction of $16.0 million from 
the FY 2010 base level. The 2012 budget reflects the enactment of a 
settlement for the Cobell v. Salazar lawsuit and assumes court approval 
of the settlement in 2011. The settlement does not address pending 
tribal cases. A total of $27.2 million will be used to support analysis 
of tribal claims in coordination with the U.S. Department of Justice. 
There are currently 96 tribal cases pending involving 114 Tribes. A 
total of $4.0 million will be used to resolve the proper ownership of 
residual balances in special deposit accounts and distribute account 
balances to Tribes, individual Indians, and non-trust entities.

Reengineering
    OST's FY 2012 request eliminates the Office of Reengineering, a 
savings of $2.1 million. This office worked to consolidate prior 
fiduciary trust reform plans. The bulk of the trust reform projects 
that the Reengineering staff impacted are currently in production--
therefore this office's operations are now deemed a lower priority. The 
program will be eliminated through attrition and reassignment.

OTR
    This budget also requests a reduction of $1.9 million for the 
Office of Trust Records. In FY 2009, OTR completed the indexing of 
trust records collected in previous fiscal years from BIA. In future 
years OTR will continue to use in-house staff, rather than contractors, 
to maintain and update the database as records are retired. OTR will be 
using less federal personnel than the base contract personnel and there 
should be minimal impact on workload and performance.

DQ&I
    The FY 2012 budget requests a $1 million reduction in the Data 
Quality and Integrity (DQ&I) program. This is a Trust Asset and 
Accounting Management System (TAAMS) data cleanup project that 
validates or corrects Critical Data Elements. TAAMS Leasing Module 
post-conversion cleanup efforts are projected to be completed by FY 
2011--therefore in FY 2012 DQ&I will have a decreased workload.

Administrative Cost Savings and Management Efficiencies
    In support of the President's commitment to fiscal discipline and 
spending restraint, OST is participating in an aggressive Department-
wide effort to curb non-essential administrative spending. The staff of 
OST should be commended for the efficient management of operations 
which accounts for $3.3 million in administrative savings in this 
budget request.
    The 2012 budget request includes reductions that reflect the 
Accountable Government Initiative to curb non-essential administrative 
spending in support of the President's commitment on fiscal discipline 
and spending restraint. In accordance with this initiative, the OST 
budget includes $3.0 million in savings in 2012 against actual 2010 
expenditures in the following activities: $267,111 for travel and 
transportation of persons, $25,270 for transportation of things, 
$20,940 for printing and reproduction, $2.5 million for advisory and 
assistance services, and $147,010 for supplies and materials. Actions 
to address the Accountable Government Initiative and reduce these 
expenses build upon management efficiency efforts proposed in 2011 
totaling $332,000 in travel and relocation, information technology, and 
strategic sourcing and bureau-specific efficiencies totaling $2.6 
million.
    The staff has also implemented a dynamic accounting process that 
ensures today's Indian trust financial operations are transparent and 
efficient. Our beneficiaries can be assured OST will continue to manage 
their funds with proficiency and care.
Conclusion
    Mr. Chairman, once again, I would like to thank you for the 
opportunity to appear before you today, and I will be happy to answer 
any questions you may have.
                                 ______
                                 
    Mr. Young. Thank you, Mr. Joseph. I appreciate that.
    Mr. Boren.
    Mr. Boren. Thank you, Mr. Chairman. I have a couple 
questions here, some general questions first to Mr. Echo Hawk. 
Your budget documents claim that the budget request was 
developed in extensive consultation with Indian tribes. I think 
that is very important and I appreciate that, that consultation 
did take place, and that your budget request tells us what you 
propose to fund based on these consultations.
    Can you tell us in your meetings and in your consultations 
with tribes something that was not included in the budget that 
maybe tribes proposed during these consultations that maybe you 
just decided, well, that may be a good idea but we can't put it 
in our budget document? What are some things that didn't 
actually make it, you know, the old cutting room floor analogy 
in a film? What are some things that didn't make it that some 
of the tribes proposed that may be something the Committee 
needs to look at?
    Mr. Echo Hawk. Thank you, Congressman Boren.
    With regard to the consultation process, we meet about four 
times a year with the Tribal Interior Budget Council. That is 
previously been called the Tribal Budget Advisory Council. So 
you know, it has moved from that word ``advisory'' to just a 
joint Tribal Interior Council, and you know, they go through a 
process each year of establishing their priorities. In fact, we 
have a meeting next week to start working on the 2013 
priorities.
    So, not only do they establish those priorities that we try 
to work into the budget, but we also, when we got the OMB 
guidance about reducing spending levels, we included the Tribal 
Interior Budget Council in those discussions as well. We are 
just trying to think about anything in particular that didn't 
make it into the budget, and you know, I think it probably goes 
down just to the level of funding for the tribal priority 
allocations. These are the core programs of tribes, they would 
have requested higher levels of funding pretty much across the 
board.
    Mr. Boren. As a follow up to that let me ask you a question 
about one of the programs. We talk about economic development. 
The Chairman has said one of the key goals of this Subcommittee 
is for economic development in Indian Country. With this in 
mind, there is a budget cut for the Indian Loan Guarantee 
Program of $5.1 million. That is a budget reduction of about 60 
percent. Is that something that you all talked about in these 
meetings? What is the reason for that cut? It may be a good 
reason. I just kind of want to scratch into that a little bit.
    Mr. Echo Hawk. Congressman Boren, as I said, you know, the 
tribes would have been requesting more dollars in some of these 
core programs that we were able to come up with in this 
request, and with regard to the Loan Guarantee Program, this 
has been something that tribal leaders support greatly We have 
utilized those funds in the past, we think effectively, but the 
budget realities that we are in right now requires some 
reductions, and this is one of the areas that was reduced.
    We are going to be working to evaluate that program to see 
how we can connect with other loan guarantee programs in the 
Federal Government. I think there was also some concern that 
with money that was allocated through the American Recovery and 
Reinvestment Act we were not able to get that money out the 
door as rapidly as we had hoped. That, to some extent, had to 
do with not just decisions that were being made by tribal 
leaders or Indian Affairs and Interior, but it had to do with 
whether or not financial institutions were willing to back the 
loans that are leveraged through this program. But, you know, 
in the long term going back we think that this has been a very 
effective program; just not as much as tribal leaders had hoped 
that we would be able to fund it this year.
    Mr. Boren. Thank you for your response.
    Mr. Chairman, it looks like we have run out of time over 
here, but got tons of questions or a lot of things that we 
could delve into.
    Mr. Young. We will have sounds rounds if you wish to do so. 
Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman.
    The first question I have it about priorities. You know, 
the purpose of the BIA is to help tribes facilitate self-
sufficiency and develop their economies. Would you agree with 
that, that that is the main purpose of the BIA?
    Mr. Echo Hawk. Yes, Congressman.
    Mr. Denham. Then why are we putting a higher priority on 
fish and wildlife over economic develop in this year's budget?
    Mr. Echo Hawk. Excuse me. Would you repeat that question?
    Mr. Denham. Why are we putting a greater priority on fish 
and wildlife protections rather than on economic development? 
You have a 20 percent decrease in economic development, and yet 
we have higher funding levels for fish and wildlife 
protections. And specifically in California, well, let me stop 
there first.
    Mr. Echo Hawk. Congressman, the funding for the fish and 
wildlife programs, a lot of those increases are driven by off-
reservation treaty rights. These have been court cases that 
have been brought in the Great Lakes area as well as the 
Northwest, in particular, and it established the right of 
tribal people to do this for subsistence and ceremonial 
purposes, but also very importantly for commercial enterprises. 
Many tribal people in those regions rely on off-reservation 
treaty fishing rights for their jobs and their economy.
    So, in order to make those viable rights it is necessary to 
spend money for habitat conservation and taking care of the 
fish and wildlife, and also meeting its responsibilities for 
management and enforcement so that those economies can 
continue.
    Mr. Denham. And shouldn't a sovereign entity do what is 
best for them on their lands rather than having our budget 
dictate to them? Again, specifically I am looking at the 
lawsuit in California.
    Mr. Echo Hawk. Could you mention what specific lawsuit you 
are talking about?
    Mr. Denham. Dealing with energy production and--I will get 
back to you on what tribe specifically it is, but I know that 
they have already expressed their concern with government 
overreach and have already filed a lawsuit in this particular 
matter. I guess, specifically it is frustrating to me to see a 
shift in priorities. I am not specifically just looking at this 
one case, but specifically in the budget there is--you know, 
economic development seems to be one of the biggest areas that 
the tribes that I have talked to wants to focus on, yet that is 
where we are seeing a decrease.
    And further in that on the administration side, we are 
talking cuts to the administration side while we are still 
seeing a backlog of permits.
    Mr. Echo Hawk. Congressman, just as a follow up, you know, 
I would assure you that there is very strong support for 
providing funding for the fish and wildlife activities, both 
off-reservation and on-reservation. I have already addressed 
the off-reservation importance. I have just a very brief 
comment about on-reservation.
    In the big picture, tribes, you know, gave up substantial 
acreage of land in the United States, and as a part of that 
process the United States made commitments back to the tribes 
that the remaining lands would be their permanent homelands and 
the United States would assist them in making these prosperous 
homelands, and fish and wildlife resources within reservation 
boundaries are important for the economy and subsistence of 
native people. And so tribal leaders feel very strongly about 
those programs.
    Mr. Denham. Thank you. I yield back.
    Mr. Young. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    I would like to point out Michigan went through a struggle 
on the fishing rights and the Indians basically won on the 
basis of a treaty. There are a couple of treaties: Treaty of 
Detroit. I read those treaties myself. For example, the treaty 
always says that we promise education for the Indians in return 
for taking their land, and I introduced a bill 40-some years 
ago in the State Legislature that any Michigan Indian can go to 
a public college in Michigan and the state pays the tuition, 
and that is still the law, and I have known many a person who 
has gone to college because of that.
    But it is really based upon the fact that the constitution 
says this constitution and the laws of the United States shall 
be made in pursuance thereof and all treaties made or which 
shall be made under the authority of the United States shall be 
the supreme law of the land, and that judges in every state 
shall be bound thereby anything in the constitutional laws of 
any state to the contrary notwithstanding. So, Michigan tried 
to stop the Indians, but they weren't able to stop them because 
of the treaty right which is protected here in the 
constitution.
    Just as a little aside, I was talking to an 80-year-old 
Indian up in Bay Mills, and he said he was out fishing one time 
when this controversy was going on, and he said the DNR came 
out to arrest me, and I knew I had my rights. My grandfather 
and great grandfather had taught me that, he said, but I hid 
out in the reeds and the weeds so the DNR couldn't physically 
grab a hold of me, and he said but the mosquitos kept biting 
me, he said, but the only thing that gave me constellation is 
that I knew the mosquitos were also biting the DNR.
    [Laughter.]
    Mr. Kildee. But you know, the constitution is extremely 
important and we are bound by those treaties and John Marshall 
has said these Indian treaties are as valid as treaties with 
France or Germany.
    We read in Article I, Section 8, that the Congress shall 
have the power to regulate commerce with foreign nations and 
among the several states and with the Indian tribes. Puts all 
those on inequality. So we don't give France its sovereignty, 
we recognize it.
    John Marshall made it very clear that the sovereignty of 
the Indian tribes is a retained sovereignty, and that retained 
sovereignty is protected by the constitution, not granted by 
the constitution. So I come to that because we mentioned the 
fishing here, and fishing is a very important right in 
Michigan, and the natives have done well under their fishing 
rights.
    In your testimony you mention the importance of improving 
trust land management. A major issue now is the Carcieri v. 
Salazar decision of the U.S. Supreme Court. They don't base 
that upon anything in the constitution, they base it on a 
faulty interpretation of a 1934 statute. What is the Department 
doing to work with the Congress or try to modify or set aside 
that Carcieri decision?
    Mr. Echo Hawk. Congressman Kildee, first of all, with 
regard to the off-reservation treaty fishing rights, I had the 
opportunity this past summer to travel to Michigan to Bay 
Mills, and part of my time spent up there was to go out in the 
waters, I think it is near the Apostle Islands, and to 
experience and to see how the tribal fishermen are making a 
living off their treaty fishing rights. And it is much more 
important than just subsistence. It is the way that they make 
their living, and it was nice to see that firsthand.
    With regard to the Carcieri case, right after I became 
Assistant Secretary of Indian Affairs I held consultation with 
tribal people across the country attended, I think we had three 
or four sessions. I attended each of the sessions in different 
parts of the country. And the strong message that I received 
from tribal leaders is that Indian tribes should be treated 
alike. There should not be any second class citizens out there 
when it comes to having the Secretary of the Interior exercise 
authority to bring land into the trust, and they also said that 
this problem created by this Supreme Court decision should be 
fixed by the Congress. And so the Obama Administration has 
taken a position in support of a legislative fix. We did that 
in the last Congress, and within the President's budget for 
2012 is a provision to support that fix in legislation.
    Mr. Kildee. And I thank you. I thank you for all your help 
and I thank you for the find way in which you are carrying out 
your responsibilities. Thank you.
    Mr. Young. The gentleman yields back? Mr. Gosar.
    Dr. Gosar. Mr. Chairman, I would like to submit an opening 
statement for the record.
    Mr. Young. Without objection.
    [The prepared statement of Dr. Gosar follows:]

Statement of The Honorable Paul A. Gosar, a Representative in Congress 
                       from the State of Arizona

    Chairman Young and Ranking Member Boren, thank you for holding this 
important hearing today. And to Assistant Secretary Echo Hawk and to 
Mr. Joseph, thank you for spending time with us this morning to delve 
into the important questions we face, as we navigate the President's 
Budget Request for next fiscal year.
    Native tribes are sovereign nations, yet the United States 
Government has a special trust obligation to these tribes, given the 
treaties we entered into with each tribe many decades ago. The history 
of this trust has been complicated to say the least. In 1975, President 
Nixon signed into law the Indian Self Determination and Education 
Assistance Act, capping a hard fought effort by native tribes to win 
the right for maximum native participation in the government and 
education of the Native American people. And indeed, the 1975 law 
contained promising provisions to allow individual tribes to negotiate 
with the Bureau of Indian Affairs to administer their social service 
programs, and empower native parents to be involved in their children's 
education.
    Native tribes have responded in kind, across the country clamoring 
for the flexibility to maintain their own infrastructure with BIA. But 
I can't help but remark that there is far more work, far more 
cooperation, and far more learning to do when it comes to empowering 
tribes to manage their own affairs.
    Given that over one fifth of my constituents are Native Americans, 
I have undertaken an effort to meet with representatives from native 
tribes both in my district and around the Southwest. And the feedback 
from this diverse group of folks is strikingly similar: The BIA is 
widely resented for inefficiency, stonewalling, and micromanaging 
tribal affairs. As one who believes that local control is the key to 
effectiveness and responsiveness, I find this trend troubling.
    Tribal leaders have expressed a strong desire for BIA to move more 
towards awarding block grant funding to the tribes, with as little 
strings attached as possible. This will enable tribes to use their 
federal monies with an eye towards efficiency and service to their 
people, not towards jumping through bureaucratic hoops and red tape. I 
look forward to hearing our witness's testimony today, and their 
thoughts on the progress of self determination and how BIA can partner 
with tribes on this endeavor.
    In particular, I am anxious to hear more from the witnesses about a 
long term plan to address the Former Bennett Freeze Area. For 40 years, 
the U.S. Government prohibited the Navajo and Hopi tribes from 
developing any further infrastructure on disputed land, about 700,000 
acres worth in the Black Mesa Region of Arizona. This ban affected 
8,000 members of the Navajo Nation across nine communities, and remains 
today the most depressed area by far on the Navajo Reservation.
    A recent study commissioned by BIA found that 77% of the homes in 
the Bennett Freeze area are not suitable for residence, and that nearly 
40% are without electricity. This isn't the result of anything but pure 
government inaction, at the expense of my constituents. I am distressed 
at the apparent lack of action on the part of the current government to 
address this blight on our society. While none of us present here today 
took part in the initial Bennett Freeze in 1966, the fact is staring us 
all in the face that it is our responsibility to redress these grievous 
and unfair wounds.
    Again, thank you to the witnesses and I eagerly await your 
testimony.
                                 ______
                                 
    Dr. Gosar. Secretary Echo Hawk, there is a part of the 
Navajo Nation that is an open wound on the conscious of this 
country. I am referring to the former Bennett Freeze area. 
Almost 40 years of government neglect, government indifference 
and government incompetence, this area is a hollow shell almost 
unfit for human inhabitation, but people do live there, and 
they want to live there. These determined Navajo want to stake 
their future in this land that Washington, D.C. almost 
destroyed.
    What has the BIA done since the Bennett Freeze was lifted 
last year to help the Navajo, and what is the BIA proposing?
    Mr. Echo Hawk. Congressman, first of all just as a side 
note, I am a member of the Pawnee Nation, the Pawnee people 
originally from Nebraska, relocated into Oklahoma, but I 
actually grew up in Farmington, New Mexico, which is right 
across the river, the San Juan River, from the largest 
reservation in the Nation that is Navajo, and I am familiar 
with the Navajo reservation because I spent about 17 years 
living in that area, and I am well aware of the controversy 
that the Hopi and the Navajo Nations had, you know, for several 
years, and it appears that most of that has been resolved 
today.
    But we, unfortunately, had the Bennett Freeze which pretty 
much stopped development in a large portion of lands that area, 
and the administration does offer up in the budget, I think it 
is $1.2 million for development of the Bennett Freeze. That is 
in this 2012 budget proposal of the President, which is meant 
to do several things to improve range land management and 
agricultural land use.
    We are going to be pushing for sustained effort because a 
lot of work needs to be done to make those lands productive for 
the people that are living there.
    Dr. Gosar. There just doesn't seem to be the urgency at the 
BIA to rebuild the FBFA. If a flood or a hurricane had 
destroyed this area, we would declare a national emergency and 
send help. Well, I am here to tell you this area is a disaster. 
It is a national disaster created by an act of the government 
instead of an act of God, but a natural disaster just the same.
    Will you help persuade the President to declare this area a 
national emergency so we can expedite assistance?
    Mr. Echo Hawk. Congressman, I note your request and we will 
take that under consideration. We will be happy to work with 
you on that.
    Dr. Gosar. Thank you. And looking at that I have met with 
representatives of numerous native tribes both inside my 
district and out. They express a strong resentment at the BIA 
in micro managing their issues, stonewalling and inefficiency. 
I am grounded in the principle that people at the local level 
know a lot more on how they have to appropriate need than does 
the bureaucrats in D.C.
    The tribal representatives tell me they would prefer block 
grants that would allow them to prioritize their needs and set 
in motion the projects they deem important in the time and 
manner they choose. Since we are having to do more with less 
due to our financial crisis, what are your thoughts about block 
grants?
    Mr. Echo Hawk. Congressman, we would be interested in 
looking at alternatives like that. Block grants, that is not 
something that presently is done in full force within the realm 
of our responsibilities, but you know, I would like to note 
some interesting things that have occurred since the mid-1970s. 
Oftentimes people say that we are not paying attention to self-
determination, but I am just looking at a chart here that goes 
back to 1973 when the Bureau of Indian Affairs had 18,285 
employees, 18,285, and today that has dropped down to just a 
little over 8,000, so there has been a constant decline in the 
number of Federal employees, and what this really means is that 
the responsibilities have been transferred to tribes, and I 
note that today about one-half of all BIA programs are operated 
and administered and managed by tribes, one-half of all BIA 
programs. And when it comes to the Bureau of Education, it is 
two-thirds of all BIA BIE activities.
    So, this chart and those figures indicate that we do pay 
attention to self-determination, and I note that the self-
determination policy was initiated 40 years ago under the Nixon 
Administration where that was followed up in 1975 by the 
enactment of the Indian Self-Determination Act. So once that 
foundation was put in place you have seen a gradual development 
of recognizing greater authority and autonomy for tribal 
governments, and we will continue to pursue that course.
    Dr. Gosar. Thank you.
    Mr. Young. I thank the gentleman, and when we introduce the 
American Indian, Alaska Native Economic Empowerment Act, I hope 
to have some input from you.
    Mr. Lujan.
    Mr. Lujan. Mr. Chairman, thank you very much, and along 
those lines, Mr. Chairman, I appreciate the questioning 
regarding the block grants. Mr. Secretary, one question that I 
have, and we can review this later as we look to see what can 
happen for infrastructure on tribal lands, in New Mexico I am 
proud to say that the state created a tribal infrastructure 
fund, recognizing the need to work closer with our tribes where 
there is the ability to leverage Federal funds as well as state 
funds and tribal funds, and I think this would be another area 
where we could seriously consider opportunities to be able to 
help establish something similar as was done within the Water 
Rights Act as well, so I would just offer that suggestion, Mr. 
Secretary.
    BIA schools are a critical component of the education of 
Native American studies, and in New Mexico we have a 
significant number of children who rely on funding from the 
Department of the Interior to get their first years of 
education, and I have had many concerned tribal leaders, tribal 
members and teachers visit my office, visit with me back in New 
Mexico as well as when I am honored to visit their council or 
with their tribal leaders, that have expressed concerns of dire 
conditions of our BIA school.
    Many times these schools don't meet normal inhabiting 
conditions and get condemned, leaving children with no place to 
go to school. In addition, my Native American constituents have 
brought to my attention that the process for obtaining support 
for funding for improvements for BIA schools is virtually 
impossible. Many times schools are approved to receive funding 
and it takes years, even decades to get the funds, meanwhile 
putting students and teachers out on the streets.
    I notice that the 2012 budget request cuts funding for new 
construction. Appreciating that only 10 percent of our students 
maybe attend BIA schools, but those 10 percent are attending 
schools in crumbling conditions.
    Mr. Secretary and Trustee Deputy Joseph, can you tell me 
what the BIA is doing to make certain BIA schools are 
maintained and constructed in a timely manner, and if there is 
a particular part in the process for maintaining BIA schools 
that the Department has identified as a problem so that it can 
be fixed, and what is your plan to address many other critical 
health and safety issues that remain in BIA schools today?
    Mr. Echo Hawk. Congressman Lujan, I will make some comment 
and then perhaps I ought to invite, with your permission, our 
BIA director to make follow-up comments. But I believe the 
statistic is accurate, and I will check that, but in my mind 
going back to 2001, about 74 percent of all BIE schools were 
rated to be in poor condition. We have made progress over the 
years in lowering that figure. One of the principal means 
recently of addressing the condition of schools and replacing 
schools was the American Recovery and Reinvestment Act, which I 
think my recollection has infused about 286 million additional 
dollars which meant we were able to build some new schools and 
significantly repair schools that were in bad condition. So 
that has lowered that figure of you know how many are in poor 
condition.
    But we still have a backlog in construction need of over $2 
billion, and I note that in the President's budget for 2012 we 
actually have a cut in construction, so this is the kind of 
thing that keeps me awake at night knowing that we have that 
significant backlog and not being able to make progress with 
this particular budget, but we have made progress in recent 
years. We just have to have a more sustained effort.
    Now, I would like to see if Keith Moore would like to make 
any additional comment.
    Mr. Moore. Thank you, Mr. Secretary, thank you, Congressman 
Lujan. Keith Moore, Director of Bureau of Education.
    I would add, you know, we obviously have the same concern 
that you do as the director of our school construction, 
maintenance work that we do. We made the decision really in the 
budget, we invested tens of millions as the Assistant Secretary 
alluded to in school construction the RL funding. So we took 
the dollars that we had there and increased our O&M, operation 
and maintenance budgets to be able to at least keep our school 
at the current level, knowing that we face a tough situation 
here in terms of the budget decisions and where we prioritize 
our line items.
    So, we made the decision to beef up the O&M side of it to 
be able to maintain the new schools and the current 
improvements that we have done in the news schools and the 
current school. So, that was one of our steps that we took in 
terms of looking at the budget.
    Second, through the FEMA system, the Facilities Management 
Information System we track all of our issues that we have in 
our schools that are critical in terms of safe and secure and 
maintenance issues, so we have that information. We could get 
that to you. That is what we pay attention to each year when we 
on a formula basis prioritize what we are going to put our 
dollars to make improvements in schools. So, we also have that 
information and that is where our dollars go in terms of 
addressing that issue.
    Last, we have put in $3.9 million in Fiscal Year 2012 for 
school safety, so we want to improve in that area in terms of 
the issues that we are trying to work on with school safety. 
There was a hearing last year on the issues within our schools 
in terms of school safety, and we are trying to address those 
issues as well.
    So, thank you for your question and the chance to respond.
    Mr. Young. Thank the gentleman.
    Mr. Lujan. Thank you, Mr. Chairman.
    Mr. Young. Who do we have here? Mr. Labrador from Idaho. 
Idaho.
    Mr. Labrador. Mr. Chairman, I have no questions. I just 
want to welcome the good gentleman from Idaho. It is always 
good to see him here.
    Mr. Young. Wait a minute. He said he was down in New Mexico 
and he said he was a Pawnee, and now he is in Idaho, in 
Oklahoma? I mean, a jack of all trades.
    Mr. Echo Hawk. Mr. Chairman, I was born in Wyoming so I 
have the West pretty much covered.
    Mr. Young. The lady from Hawaii.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chairman. Thank 
you, Mr. Secretary for being here.
    Mr. Secretary, I am interested in that part of your 
testimony that talks about basically strengthening the nation-
to-nation relationship, but in particular where you make the 
statement that investing in Indian Country, that you believe 
that is probably the most essential part of strengthening the 
nation-to-nation relationship.
    So, can you explain to me what you mean when you say 
``investing in Indian Country'' other than the acquisition of 
lands in trusts?
    Mr. Echo Hawk. That is a good question, Congressman, and 
you know, I emphasized in some of my comments already that we 
try very, very hard to consult with tribal nations and to 
listen very carefully. We have a formal mechanism to do that, 
the Tribal Interior Budget Council, and they are the ones that 
give us the direction about what we should be doing in terms of 
offering up requests for increases in the budget, and in this 
budget, you know, there are several decreases that have been 
made in order to meet the tribal priorities, so we listened 
very carefully, and we are listening to what the tribal leaders 
think are the ways that we ought to fashion the Indian Affairs 
budget in Interior to figure out their objections. Most of 
these things connect with economic development.
    Ms. Hanabusa. You are requesting $42.3 million programmatic 
increases for contract support, self-determination, contract 
specialist and social workers, and that is all in the context 
of Indian Country. So how exactly contract support part of 
investing in Indian Country?
    Mr. Echo Hawk. This is the top priority of the Tribal 
Interior Budget Council because it strengthens the tribal 
capacity to manage Federal programs and gives them flexibility 
once these allocations are made to be able to manage the money 
that they receive for these core programs, and this $25.5 
million request for increase will help to get that contract 
support up to about 90 percent. Tribal leaders, of course, 
would like that to be all the way up to 100 percent because, 
you know, they receive money for Federal programs, but they 
don't have--without contract support they don't have the 
administrative capability to really take care of those, and so 
they end up taking money from the actual programs in order to 
administer. So, one of these days we hope to be able to reach 
that 100 percent level, and this is the top priority of the 
tribal leaders that we consult with.
    Ms. Hanabusa. The energy initiative that you touched upon, 
I guess that is the economic development portion of it in the 
Office of Indian Energy and Economic Development I guess is 
where it is going to be found. I am just curious, if you can 
give us a quick rundown of exactly what types of energy 
initiatives that is going on and whether or not these are 
exportable, salable types of ventures outside of Indian County.
    Mr. Echo Hawk. Well, the Office of Indian Energy and 
Economic Development, they work with tribes to--well, they 
listen to tribal leaders express their desire to develop their 
lands and resources, and provide professional and expert 
counsel to be able to connect them up, for instance, with other 
Federal programming, and we have some money available to help 
start some of those projects.
    We would be happy to provide the Committee with a detailed 
explanation of the various activities of this program within 
the Office of the Assistant Secretary.
    Ms. Hanabusa. Thank you very much. Thank you, Mr. Chairman.
    Mr. Young. Thank you. We will have a second round for all 
the Members.
    Mr. Echo Hawk, I don't really have a big argument with the 
budget. I do think some of the areas that concern me, like I 
think it was $2 million in answering an EPA violation deeply 
disturbs me because it is taking the money hand from one group 
and hand it to another group, take it away from you, it helps 
the Native groups, which brings me--one of my goals is to make 
sure that as other agencies are interfering with your 
operations or with the operations of the tribal lands, and 
projects cannot be completed, how do you respond to those 
agencies? What is your role?
    Mr. Echo Hawk. Mr. Chairman, you know, I oftentimes hear as 
I travel across Indian Country and that has been a lot of 
travel because I have been in 38 states in the last 21 months 
visiting with tribal leaders, that they want me to be their 
voice back here in Washington, D.C. in dealing with other 
departments and agencies of the Federal Government, and 
sometimes that is even within--in fact a lot of times even 
within Interior because Indian Affairs, tribal nations 
sometimes have conflicts with other agencies and departments, 
so I am supposed to be their advocate and I try my best to do 
that.
    Mr. Young. What I am suggesting is in this legislation as a 
nation dealing with another nation I don't think we have the 
right to implement laws that don't benefit that nation. We 
don't do it to Canada, we don't do it to India, we don't do it 
to Japan, we don't do it to Russia, and I am thinking that 
maybe we ought to expedite or at least streamline the ability 
for a tribe to develop energy resources if they wish to do so 
instead of delaying it because your voice may be strong, but 
the other agencies they will thumb their nose at you, as they 
have a habit of doing.
    So, as we work together I would like to work with you and 
see if there is some way that we can write legislation that 
will expedite that process instead of slowing it down and 
giving reason to lawsuits could occur because they can never 
get anything done on these lands, and I go back to the is 
concept the highest poverty level, the highest alcoholism, the 
highest drug use, the highest unemployment, the highest dental 
problems, the highest lack of education problems reside in our 
reservations.
    Now, there has been some successes. Some of those successes 
like the Seneca Tribe in New York is because they are outside 
of the trust relationship, and I just think that we have to 
open this box up to make sure that we have an opportunity to 
give them the opportunity. My opening statement was that there 
are 100 million acres of land, bigger than the State of 
California, and yet we have those high records of what I call 
Third World poverty, and so I want you to put your thinking cap 
on and we will work on this together.
    Which reminds me, unemployment rate in the reservations are 
what? Do you have any idea?
    Mr. Echo Hawk. Mr. Chairman, overall the unemployment rate 
as I recall for Indian tribes is in the neighbor of 60 percent, 
as high as 85 percent in some communities, so we are facing a 
very challenging situation. In the United States we are alarmed 
when we have unemployment near 9 percent, but it is not 
uncommon to see those unemployment rates higher than 80 percent 
in Indian Country.
    Mr. Young. If you were to take out the BIA jobs, the 
government jobs, the government supported job, it would 
probably be around 90 percent.
    Mr. Echo Hawk. Congressman, it may be that case.
    Mr. Young. Well, see, again, I want to emphasize that 
because we have not done a good job, and by the way, Mr. Echo 
Hawk, you are just the last horse in this parade. I have 
watched all the horses before for the last 40 years, so don't 
feel bad. You just have to walk through all that other stuff 
they left behind, you know, but be careful and try to miss it, 
but this is why I am so excited about trying to do something 
that will make them raise above all those terrible numbers I 
just recited so that you will be able to achieve, I think, a 
great step forward if we do this together.
    There will be people that object to this, you and I know 
that, but there may be ways that we can work together to make 
sure the agencies don't keep putting their foot on top of their 
heads, special interest don't put their foot on top of their 
head and they allow them to come up and do the things I think 
they are capable of doing.
    I am going to start another round--sorry, he is late. His 
first question could be his deal, but Mr. Pallone, if you would 
like to go ahead. You are going to wait a minute, we are 
starting the second round?
    Mr. Pallone. I will do whatever you want.
    Mr. Young. Go ahead, you have to five minutes for the first 
round.
    Mr. Pallone. All right, thank you. Let me thank you, 
Chairman Young, and also our Ranking Member Boren for holding 
the hearing and allow me to ask a few questions, and I just 
wanted to say I am glad that we have this newly formed 
Subcommittee, and I think it is a place where you can have a 
lot of new innovative solutions to the challenges that face 
Indian Country, and I know that both of you are certainly long-
time friends of Indian Country.
    The first question is that I believe that strong and stable 
tribal governments that establish self-determination are 
fundamental to the success of Indian Country. However, a major 
obstacle has been placed in the way of improving the trust 
relationship with the Carcieri decision. And since, you know, 
we fixed it in the House but it did not pass the Senate. A 
major concern of mine is that states and localities in some 
cases have begun to extend the reach of the regulations and 
taxes to newly acquired non-trust Indian lands.
    So, first, what actions are being taken to prevent states 
and localities from taxing sovereign tribes on these lands? And 
second, is there room in the budget request to provide 
assistance to tribes that are affected by the negative 
consequences that have resulted from Carcieri? Talking about 
tribes that purchase lands now own lands but because of 
Carcieri they are not in trust. We are hearing a lot of things 
are happening where the states and the towns are trying to tax 
them, regulate them. Is there anything to prevent that? Is 
there anything we can do to help out when those circumstances 
arise? I ask either of you, and I hope it hasn't been asked 
already; otherwise you can tell me that, too.
    Mr. Echo Hawk. Congressman, I have previously commented 
about the Carcieri decision and noted that the Obama 
Administration has stood up strong in support of the 
legislative fix.
    Mr. Pallone. Well, I know we all want to fix it and I 
appreciate that, but what I am asking you absent that I am 
being told by some tribes, and you know, we had NCAI, USET, 
NAGA, everybody has been in town in the last few weeks, and 
some of them have said to me that the states and the towns are 
not taxing those lands because they are not in trust, 
regulating those lands that is contrary to sovereign 
relationship because they think they can do it because they are 
not in trust.
    I guess, is there anything we can do to prevent that or is 
there anything we can do to help out with the budget or 
something in those cases, or maybe you are not even aware that 
these things have arisen but I am hearing that they have?
    Mr. Echo Hawk. Congressman, actually when the USET 
organization met here just recently, I appeared in front of 
them and spoke and answered questions, and they brought this 
issue up with me, and we committed to work with them to try to 
see what we could do on that issue, and I would be happy to 
meet with you and see what we can work on together.
    Mr. Pallone. If you could get back to me. I am not a member 
of the Subcommittee, so I have to ask through the Chairman. If 
you want to get back to me, I would appreciate it, but I know 
that is a concern.
    Does Mr. Joseph want to respond to that?
    Mr. Joseph. Thank you, Congressman Pallone. At this time I 
am not really up to speed on this matter. I have only been in 
place about two months, but I am more than happy to work with--
--
    Mr. Pallone. Well, then let me get back to the two of you 
with the permission of the Chair, Mr. Boren.
    The second thing I wanted to ask is, I will as this of 
Assistant Secretary Hawk, and I think this did come up about 
the reduction in the budget for the Indian Guarantee Loan 
Program, the $5.1 million that has been suggested. I mean, this 
is one of the few avenues for financing a lot of tribal 
economic development activities which obviously are so 
important with the recession.
    Are there any other loan guarantee or financing programs 
that exist that could improve upon or replace the guaranteed 
loan program and fill this gap? I mean, obviously, you know, I 
don't like to see that kind of reduction, but are there other 
types of economic development opportunities that can fill the 
void of this program? That would be my second question.
    Mr. Echo Hawk. Indian Country feels very strongly that this 
is a good program. It has been used very well in the last few 
years. There are some concerns that have been raised about 
whether or not it is duplicative with other resources within 
the Federal Government. There has been a cut in funding this 
year, but there is a resolve to try to evaluate this.
    Mr. Pallone. Well, what are the other things that could 
replace it or that could help them with economic development of 
a similar nature? You say it may be redundant, but what are the 
other things that are available?
    Mr. Echo Hawk. I believe there is the SBA, and also I think 
something in the Department of Agriculture that has money 
available for development.
    Mr. Pallone. Now, it seems to me that is--I mean, look, 
again, my time is up, but it seems to me that if you are 
talking about eliminating or significantly reducing it, you 
know, there is going to be a void, and either you should keep 
it or come up with something else that is specific to tribes.
    Thank you, Mr. Chairman.
    Mr. Young. Thank you, Mr. Pallone. Mr. Boren.
    Mr. Boren. Thank you, Mr, Chairman. I am going to go back 
to Mr. Joseph since a lot of attention has been toward 
Secretary Echo Hawk.
    Since the passage of Cobell, the Cobell settlement, it is 
clear that land probating and fractionated interest costs the 
U.S. Government far more money than the land is worth. It is 
just a real issue. What is being done to prevent fractionated 
interest from continuing to accrue such costs? That is the 
first question.
    Is the small amount of funding available enough to make a 
dent in the number of fractionalized land interests, and what 
kind of oversight is put into place to ensure the problem is 
handled effectively?
    This reminds me of an issue, this is a separate--we have in 
our district right now the Corps of Engineers is trying to 
transfer like 20 acres of land that they don't want to some 
economic development entity. Anyway, the land is only worth 
about $100,000, but it is going to cost a million dollars to 
transfer it. That makes us all look bad. That makes government 
look bad. And so what are you all doing again with this small 
amount of money? How is this all going to work out and would be 
happy to hear your response?
    Mr. Joseph. Thank you, Congressman Boren. The Cobell case, 
it remains in active litigation at this time, and it is under 
the U.S. District Court of District of Columbia under Justice 
Hogan. Currently we are looking at evaluating certain issues 
dealing with fractionation internally but until the final 
settlement is approved we are just in that pattern. We are not 
allowed to proceed any further than that. We also need to 
consult before that as well.
    So, at this time there isn't any plan related to Cobell. 
You asked several questions so I wanted to make sure I answered 
that piece first.
    And then we also looked at buying it probate on an ongoing 
basis to deal with fractionation in the traditional sense in an 
ongoing every day basis, but there are two parts to your 
question, correct?
    Mr. Boren. That is correct. Let me go back then again. So 
let us say that everything gets worked out, there is a final 
settlement. Do you feel like you have enough resources to do 
this from your position?
    Mr. Joseph. At this time we are still in very preliminary 
early stages on planning for this internally. I wouldn't be in 
a position to comment on that at this time. I wouldn't want to 
misrepresent any ideas or concepts because we haven't 
identified all the things that need to be addressed.
    For example, when you are purchasing land it is appraisals, 
titles, survey, and ownership. There are a lot of different 
pieces that need to be addressed. So I think it is important 
that we look at it in a comprehensive manner and come back with 
a comprehensive plan.
    Mr. Boren. Well, this is going to be an ongoing issue that 
we are probably going to be dealing with in the Subcommittee, 
so if you could keep us informed, keep my office and the 
Chairman's staff informed that would be great.
    In the interest of time let me go to one other question. 
Then I will turn it back to the Chairman. This is for Secretary 
Echo Hawk.
    I have seen the budget. There are many increases in funding 
that provide for more personnel among many agencies. There is 
money to hire social workers, natural resource specialists, 
police officers and administrative acquisition staff, among 
others. What, if any, measures are taken to ensure that Native 
Americans are recipients of these new jobs?
    Mr. Echo Hawk. With the jobs that are created in these 
initiatives that have increased funding, these would be jobs 
that fall under the auspices of Indian preference. So, you 
know, whatever jobs are out there if there are qualified 
Indians they will be hired.
    Mr. Boren. I mean, do you feel like at the Bureau that it 
is adequately addressed, that you have, you know, 
percentagewise, I mean, could you give us some facts and 
figures? I know you don't have it off the top of your head but 
maybe you could share with our staffs so that we could know. 
Again, this is my first time to really delve into some of these 
matters, and we do this in a lot of different agencies, but it 
would be great to have some of those numbers and to know what 
Indian Country, as I am sure it is represented, the numbers 
which tribes from across the Nation are represented in these 
portions of the budget.
    Mr. Echo Hawk. Congressman Boren, I would be happy to give 
you some detailed information that we may be able to come up 
with in response to your question. In the travels that I have 
done across the Indian Country since we have had some funding 
increases in--just recently I have actually been on site where 
I have heard from tribal leaders express appreciation for the 
jobs that have been created in their communities.
    Mr. Boren. Thank you, Mr. Chairman. I yield back.
    Mr. Young. Thank you. I am going to use discretion of the 
Chair. Mr. Joseph, I understand, or Mr. Echo Hawk, I understand 
the Department is informing tribal leaders that a court order 
prevents departmental officials from discussing the settlement 
and its elements, including the land consultation plan, until 
the judge approves the settlement.
    What court order are you referring to? Anybody want to 
answer that?
    Mr. Echo Hawk. Congressman Young.
    Mr. Young. We have the lawyers now.
    Mr. Echo Hawk. Congressman Young, for myself, I am recused 
from the Cobell issues, so that is the primary reason I cannot 
respond, but perhaps someone----
    Mr. Young. Mr. Joseph can answer. I need to find out what 
Court we are--yes?
    Mr. Joseph. Chairman Young, it is the no contact order.
    Mr. Young. It is a what?
    Mr. Joseph. It is the no contact order.
    Mr. Young. See, you are going to be $1.8 billion eventually 
to consolidate these lands. You have to have a plan.
    Mr. Joseph. I understand.
    Mr. Young. And I will tell you I will make sure before this 
goes any further I am going to see that plan because that is a 
lot of money. The leaders don't know what is going to happen. 
Nobody knows anything. You guys are running around in 
transparency with an iron suit on. I mean, why can't you guys 
answer that question?
    All right, go ahead, Mr. Joseph. How long have you been the 
job, by the way?
    Mr. Joseph. Two months, sir.
    Mr. Young. I am not going to pick on you so go right ahead.
    Mr. Joseph. Thank you. Until the judge issues the 
settlement, there is a no contact order, and there is currently 
a period right now until April 20th where it is the opt-out 
period, so we aren't contacting any of the class members for 
that reason. Plaintiffs are response for doing that at this 
time.
    Mr. Young. Well, is there a timeframe on this settlement as 
far as the judge?
    Mr. Joseph. I believe the date is June 20th is the fairness 
hearing date.
    Mr. Young. Hearing date, but that won't be the settlement 
date.
    Mr. Joseph. No, sir, I believe--well, let me check with the 
attorney just to be sure.
    Chairman Young, after the June 20th date the judge at his 
discretion will be issuing his final order.
    Mr. Young. So it is up to him. What I am going to do is, 
you know, I want you gentlemen to keep us informed because I am 
not about to disburse $1.8 billion without a plan, and who is 
going to receive what, how it is going to be done because this 
is important. I believe there is about 4.1 million fractionated 
cases and 100,000 fraction tracts and this is something that we 
are going to have to be looking at. I hope the lawyers in this 
room are representative once that huge amount of money, $223 
million, and still not settled, so that is another question 
were going down the line. When that gets done, they may be 
excited with me.
    You are good? Jeff, have you got some questions?
    Mr. Denham. Yes, I just wanted to follow up again. 
Certainly I have concerns with the fish and wildlife 
protections and the funding levels that those are at, but 
specifically I want to go back to the economic development 
portion of this. You have a 20 percent cut there.
    Will all the cuts in the administrative budget slow down 
and further hinder tribes from acquiring the permits and 
approval they are required to sustain their communities? And do 
you have any timeline on the length of time it takes to get the 
majority of these different permits, whether they be housing 
permits or lease agreements?
    Mr. Black. Good morning. Thank you, Congressman. I am Mike 
Black, Director of the BIA.
    I would be happy to get back with you on the exact number 
and figures, about approximate times it takes for a lease, and 
that is going to vary, dependent upon the type of lease that we 
are dealing with or permit; whether it be a home site lease, an 
oil and gas permit, or agricultural or grazing permit type 
situation.
    Mr. Denham. Thank you. I would like to see the different 
types of permits but also to see if they vary from state to 
state.
    Mr. Black. That is right.
    Mr. Denham. And then specifically on this cut itself do you 
have the procedures in place so that it does not get any worse 
that it already is today?
    I think we all recognize that it is not good, but is it 
going to get worse with the 20 percent cut?
    Mr. Black. I don't believe the cuts that are in that area 
really pertain or are particular to that area dealing with our 
leases and our agricultural programs for the most part, and I 
don't believe what is there will directly affect our ability to 
carry out those missions.
    Mr. Denham. And are there steps in place to remove 
unnecessary burdens and bureaucratic blockages that currently 
cause slow downs in this area?
    Mr. Black. We are currently undergoing a number of 
different initiatives to look at our processes, and also in our 
regulations with business leasing, that would hopefully 
expedite and streamline some of those processes.
    Mr. Denham. Thank you. I would like to see some specifics 
on that.
    And one issue that is of concern to me as somebody from 
California, we have a lot of duplication in the different 
regulations that you must go through, and we wonder if 
specifically in this area if the Administration would be 
willing to look at waiving NEPA when SEQA is involved. You have 
to go through the SEQA process which is obviously much more 
onerous than the NEPA process. Would NEPA be able to be waived 
in those cases? And you can get back to me on that one.
    Mr. Denham. Thank you.
    Mr. Echo Hawk. Mr. Chairman and Congressman, just a brief 
comment on your question.
    We presently are looking at a revision of the leasing 
regulations. It is Part 162, and it does touch on business 
leases, and the aim of this revision or amendment would be to 
streamline the process for purpose of advancing economic 
development and energy development, and consultations on the 
lease revisions are going to start next week, so tribal leaders 
all across the country will be able to give comment on the 
proposed changes which have already been sent to them.
    Mr. Denham. Thank you.
    Mr. Young. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    First of all, just looking around this Committee today I 
feel very encouraged. You know, we are all kind of new on this 
Committee. This is a slightly new Committee. We haven't had one 
for a long time. But I am encouraged when I see the makeup of 
the Committee. It is very, very good.
    While Mr. McClintock is not really new, he is kind of new. 
We are all new on this Committee, and I look forward to working 
with Mr. Denham on issues that we have mutual interest in, and 
Ms. Hanabusa from Hawaii, but I just feel encouraged that we 
have put together a very good working Committee on this issue.
    Let me ask one question. On your nation-to-nation program 
where you have funding of $42.3 million, what activities or 
mission do you foresee them being involved in, and how will it 
be able to help particularly the smaller tribe who don't have 
the resources very often to get involved in these various 
programs?
    Mr. Echo Hawk. Within the nation-to-nation initiative where 
we are asking for a $42.3 million increase, the centerpiece or 
foundation of that initiative is the contract support, and this 
is the top priority, as I mentioned, from our tribal leaders 
that we consult with, and we have been told, you know, in those 
meetings that the tribes would be interested in contracting or 
compacting additional programs. I think we have about 3,200 
programs that have already been contracted, but the tribes 
would like to do more of that so within this initiative there 
is $4 million that is requested to go into the Indian Self-
Determination Fund that would allow more tribes to contract or 
compact.
    And with regard to the small tribes, our concern there is 
that all tribes should be able to operate the very basic 
programs of the tribal government, and oftentimes if you are 
real small you cannot do that, so we give special attention to 
those tribes that have populations of less than 1,700 or tribal 
priority allocation of under $160 for the lower 48 and I think 
it is 200,000 for the Alaska tribes. So, we are putting more 
money into that fund to try to raise those tribes up to a 
certain threshold.
    Mr. Kildee. Thank you very much. I am very encouraged by 
that. Thank you, Mr. Chairman.
    Mr. Young. Mr. Lujan.
    Mr. Lujan. Mr. Chairman, thank you.
    Mr. Secretary, over 90 percent of the Jicarilla Apache 
Nation's government operations are funded with revenues from 
production of their oil and gas resources. Most of the oil and 
gas leasing activity on the Jicarilla Reservation is conducted 
in accordance with the Indian Mineral Leasing Act of 1938.
    The IMLA sets forth responsibilities on the Federal 
Government, specifically on the Secretary of the Interior, to 
manage and regulate mineral leasing so as to ensure maximum 
benefit to the tribes. Despite the fact that there are at least 
three separate agencies within the Department of the Interior's 
jurisdiction over Indian leasing--Bureau of Indian Affairs, 
Bureau of Land Management, and Minerals Management Service--the 
Jicarilla Apache Nation has suffered tremendous losses because 
they have not been informed of non-compliance by operators of 
leasees until months or years after non-compliance has 
occurred.
    If non-compliance is not addressed, leasees go into 
bankruptcy, and use tribal leases as leverage. Tribes then have 
to spend valuable and sparse resources to battle leasees in 
Bankruptcy Court.
    I want to elevate this issue to your level because these 
are Federal leases and the Department has the trust 
responsibility to the tribes. This affects the nation's ability 
to collect due revenues, royalties, taxes which directly 
impacts the Jicarilla Nation's ability to provide essential 
government services to tribal members and reservation 
residents.
    In the budget I notice there are program reductions for 
real estate services and minerals and mining projects. My 
questions are, will these budget reductions prevent BIA from 
adequately addressing the notification of non-compliance issues 
and what is the Agency doing to address the issue of non-
compliance, and will you be willing to work with the Jicarilla 
Apache Nation to resolve this issue?
    Mr. Echo Hawk. Congressman Lujan, with the Chairman's 
permission I would like to ask the Bureau of Indian Affairs 
director to respond.
    Mr. Young. I have no objection.
    Mr. Black. Thank you, Congressman.
    In response to the budgetary questions, we did an 
evaluation of the Jicarilla agency budget, and the cuts that 
are made in those certain areas won't have an effect on our 
ability to carry out our responsibilities under the oil and gas 
leasing.
    In response or in regards to the compliance with the 
contracts and the leases, that is a shared responsibility 
between ourselves and Office of Natural Resource Revenue, 
formerly MMS, and we rely on MMS to notify us in times when a 
leasee is non-compliant in their payments, and we are going to 
have to be working closer with ONRR in order to ensure that we 
get timely notification of those things so that we can fully 
enforce our compliance requirements.
    In addition, we are going to work--we need to work closer 
with the Jicarilla Apache Tribe regarding bonding issues to 
determine if that is a factor involved here, and then looking 
at any other best course of action that we can.
    Mr. Lujan. Thank you. Mr. Chairman, what I would hope is 
that if this is another aspect of MMS that is broken, that we 
fix it because not notifying them and then forcing them to go 
into litigation, wasting valuable resources is not the way to 
encourage being responsible when it comes to our resources, so 
I hope that is something we can look at.
    One other project that I am concerned about is on the 
Navajo Nation Indian Irrigation Project. This is a project 
where we are seeing a reduction of $9 million in the 2012 
budget, and as you know, after years of intense negotiations 
between the United States and the Navajo Nation, in 1962 the 
Congress enacted the Navajo Indian Irrigation Project to 
fulfill in part the U.S. treaty obligation with regard to water 
supplies.
    I am not sure why this project is being reduced, but I 
would certainly encourage that in light of the legal 
obligations still in place that we pursue equitable resolutions 
from the Department, and Mr. Chairman, I am respectful of our 
time as well, this is something that I, without any objection, 
would gladly submit it for the record so we can get a response 
a little bit later.
    Mr. Young. That is good. Without objection.
    The young lady from Hawaii.
    Ms. Hanabusa. Thank you, Mr. Chairman. Mr. Chairman, I 
would like to thank you for your very strong statements of true 
nation-to-nation relationship.
    Mr. Secretary, as I understand it and you mentioned it 
prior in response to someone about the statements regarding the 
schools that were built under the ARRA funds. Now, it is also 
my understanding from the report compiled by the Council of 
Environmental Quality that NEPA actions for projects under the 
ARRA was also part of that review, and there were 113 schools, 
190 housing projects, and 379 road projects, and they were all 
reviewed under NEPA as I understand it,and still the 
constructions were able to go forward.
    Can you tell us whether there was any problems with that or 
how did that process work so successfully?
    Mr. Black. Congresswoman, in response to that, you know, 
the NEPA process was basically the standard process we follow 
with all of our construction projects regardless of the type, 
whether it be road maintenance, road construction or facilities 
construction, and we were just essentially able to do that 
somewhat in an expedited fashion I think in some cases, but 
generally it fell under our normal processes which in some 
cases is somewhat different in construction that we are dealing 
with in the area of leases.
    Ms. Hanabusa. But this is standard modus operandi for all 
of you for all of the projects that are covered under the AARA. 
You didn't have anything special in some footnote under AARA 
that allowed you to ignore it or anything like that?
    Mr. Black. No, ma'am, not that I am aware of.
    Ms. Hanabusa. But you did use the word ``expedited''. What 
was that?
    Mr. Black. We put additional resources where necessary in 
some of those program areas in order to get these dollars out 
on the street.
    Ms. Hanabusa. So it was more expedited by yourself than----
    Mr. Black. Yes.
    Ms. Hanabusa.--then process itself?
    Mr. Black. Yes.
    Ms. Hanabusa. Thank you.
    Mr. Secretary, there is something that I was interested in 
from your prior testimony. I am also a strong advocate of the 
nation-to-nation relationship. You said something in response 
to my question, that that is a priority for Indian Country, and 
we were talking about the contract aspects. When you say that 
is a priority for Indian Country, can you define for me who do 
you mean when you say Indian Country, and what is the 
consultation process that you go through so that you can speak 
for Indian Country?
    Mr. Echo Hawk. Congresswoman Hanabusa, it is probably the 
law professor part of me coming out when I say Indian Country 
because that is a legal term of art that actually describes the 
jurisdiction of the United States that comes with special 
obligations, and we have 565 tribes that are Federally 
recognized, so that is the nation-to-nation relationship that 
we have.
    Ms. Hanabusa. But when you speak on behalf of Indian 
Country who are you speaking on behalf of? Are you speaking on 
behalf of the majority of 565 tribes or are you just surmising 
from your conversations with 565 tribes that this particular 
issue is their number one priority?
    Mr. Echo Hawk. Well, you know, Congressman Hanabusa, I need 
to be more careful in probably some words that I say, but a few 
minutes ago I said that I try to advocate the positions from 
Indian Country, and oftentimes tribal leaders ask me to do 
that, but I was going to make a follow-up comment to the 
Chairman that those tribes are very capable of speaking for 
themselves, and you know, they may ask me to be their advocate, 
but you know, I need to always recognize that their voices is 
the more important voice when they communicate nation to 
nation. It is not the Assistant Secretary's voice that really 
counts as much as their own.
    Ms. Hanabusa. Mr. Chairman, what I would like to know, and 
you can respond to me in writing if the Chairman permits this, 
is what if there is a conflict among the tribes? Who then 
speaks for Indian Country or what is the position if you come 
before us and you tell us this is Indian Country's position?
    Thank you, Mr. Chairman.
    Mr. Echo Hawk. Congressman, I would simply go back to that 
same comment that their voice is the more important, especially 
if there is conflict because I cannot speak for both sides.
    Mr. Young. I thank all the Members. We are going to bring 
this meeting to a halt. I will say one thing for the lady from 
Hawaii. There will always be conflict in Indian politics. That 
is one of the most difficult things we face, and my urging to 
them is not to be too much of a conflict to work together to 
achieve goals. I have seen it work. It can be fantastic. Where 
there is division you are going to die, and when you are a 
unity you are going to really survive and progress and that is 
very important.
    I want to thank the two witnesses. There will be written 
questions submitted to you. We hope you get the answers back as 
soon as possible and, for the rest of the Members, keep in mind 
this is a proposal of the President's and these people have 
been speaking for the President and presented their points of 
view, and our job is to write the budget. That is our job now 
to convey what we believe is correct to the appropriate 
appropriations committee so we will write a budget to try to 
solve the problems, and where there is a difference with the 
President, we will solve that problem. This is not Democrat and 
Republican. We only have one constituency to represent, and I 
believe we can do that.
    With that, this meeting is adjourned.
    [Whereupon, at 12:33 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
